No. 20-303

 

IN THE

Supreme Court of the United States

UNITED STATES OF AMERICA, PETITIONER,
v.
JOSE LUIS VAELLO-MADERO

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE First CIRCUIT

BRIEF FOR RESPONDENT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
12,949 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 30, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
